      DEPARTMENT OF HEALTH & HUMAN SERVICES                               Office of Inspector General

                                                                          Washington, D.C. 20201




November 3, 2009

TO:            Carmen Nazario
               Assistant Secretary for Children and Families


FROM:          /Daniel R. Levinson/
               Inspector General


SUBJECT:       Pennsylvania’s Title IV-E Claims on Behalf of Children Who Exceeded the
               Maximum Eligible Age From October 1997 Through September 2002
               (A-03-08-00553)


Attached is an advance copy of our final report on Pennsylvania’s Title IV-E claims on behalf of
children who exceeded the maximum eligible age from October 1997 through September 2002.
We will issue this report to the Pennsylvania Department of Public Welfare (the State agency)
within 5 business days. The Administration for Children and Families (ACF) requested this
review.

In Pennsylvania, the State agency administers the Title IV-E foster care program through the
67 counties. The counties submit quarterly summary invoices for maintenance and training
costs to the State agency and claim administrative costs separately. The State agency
consolidates the claims from all 67 counties and submits Quarterly Reports of Expenditures
and Estimates (Forms ACF-IV-E-1) to ACF to claim Federal funding. This report, one in a
series of reports on Pennsylvania’s Title IV-E foster care claims, covers 65 of the 67 counties.

Our objective was to determine, for the period October 1997 through September 2002, whether
the State agency claimed Title IV-E maintenance and associated administrative costs only for
children under the age of 19.

The State agency did not always claim Title IV-E maintenance and associated administrative
costs only for children under the age of 19. As required, the State agency did not file any
Title IV-E claims for services provided to 63 of 100 sampled children after they reached the age
of 19. However, the State agency filed unallowable Title IV-E claims on behalf of the 37
remaining sampled children for services provided after they turned 19. Based on our sample
results, we estimated that the State agency improperly claimed at least $1,641,903 (Federal
share) in Title IV-E maintenance and associated administrative costs on behalf of children aged
19 or older in the 65 counties reviewed.
Page 2 – Carmen Nazario


We recommend that the State agency:

      refund to the Federal Government $1,641,903 (Federal share), including $1,002,540 in
       unallowable maintenance costs and $639,363 in unallowable administrative costs, for the
       period October 1997 through September 2002;

      work with ACF to identify and resolve any unallowable claims for maintenance costs for
       children aged 19 or older made after September 2002 and refund the appropriate amount;
       and

      work with the counties to establish controls to identify and prevent claims for Title IV-E
       reimbursement for children aged 19 or older.

In its comments on our draft report, the State agency disagreed with our finding and
recommendations. The State agency questioned our authority to conduct the audit and stated that
our recommendations were without merit and contrary to law. We maintain the validity of our
recommendations, as well as our conclusion that the State agency did not always comply with
Federal Title IV-E age requirements.

If you have any questions or comments about this report, please do not hesitate to call me, or
your staff may contact Lori S. Pilcher, Assistant Inspector General for Grants, Internal Activities,
and Information Technology Audits, at (202) 619-1175 or through email at
Lori.Pilcher@oig.hhs.gov or Stephen Virbitsky, Regional Inspector General for Audit Services,
Region III, at (215) 861-4470 or through email at Stephen.Virbitsky@oig.hhs.gov. Please refer
to report number A-03-08-00553.


Attachment
     DEPARTMENT OF HEALTH & HUMAN SERVICES                                Office of Inspector General

                                                                          Office of Audit Services, Region III
                                                                          Public Ledger Building, Suite 316
                                                                          150 S. Independence Mall West
                                                                          Philadelphia, PA 19106-3499



November 9, 2009

Report Number: A-03-08-00553

Ms. Estelle B. Richman
Secretary of Public Welfare
Pennsylvania Department of Public Welfare
P.O. Box 2675
Harrisburg, Pennsylvania 17105

Dear Ms. Richman:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled “Pennsylvania’s Title IV-E Claims on Behalf of Children
Who Exceeded the Maximum Eligible Age From October 1997 Through September 2002.” We
will forward a copy of this report to the HHS action official noted on the following page for
review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact Michael Walsh, Audit Manager, at (215) 861-4480 or through email at
Michael.Walsh@oig.hhs.gov. Please refer to report number A-03-08-00553 in all
correspondence.

                                             Sincerely,



                                             /Stephen Virbitsky/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Ms. Estelle B. Richman


Direct Reply to HHS Action Official:

Mr. Ron Gardner
Grants Officer
Administration for Children and Families, Region III
U.S. Department of Health and Human Services
Suite 864, Public Ledger Building
150 South Independence Mall West
Philadelphia, Pennsylvania 19106-3499
Department of Health and Human Services
            OFFICE OF
       INSPECTOR GENERAL




 PENNSYLVANIA’S TITLE IV-E
    CLAIMS ON BEHALF OF
CHILDREN WHO EXCEEDED THE
MAXIMUM ELIGIBLE AGE FROM
  OCTOBER 1997 THROUGH
      SEPTEMBER 2002



                       Daniel R. Levinson
                        Inspector General

                        November 2009
                        A-03-08-00553
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

Title IV-E of the Social Security Act, as amended, authorizes Federal funds for State foster care
programs. For children who meet Title IV-E requirements, the Administration for Children and
Families (ACF) provides the Federal share of States’ costs, including maintenance (room and
board) costs and administrative and training costs.

In Pennsylvania, the Department of Public Welfare (the State agency) supervises the Title IV-E
foster care program through its Office of Children, Youth, and Families. The State agency
administers the program through the 67 counties. The counties submit quarterly summary
invoices for maintenance and training costs to the State agency and claim administrative costs
separately. The State agency consolidates the claims from all 67 counties and submits
Quarterly Reports of Expenditures and Estimates (Forms ACF-IV-E-1) to ACF to claim
Federal funding.

This report, one in a series of reports on Pennsylvania’s Title IV-E foster care claims, covers 65
of the 67 counties.

OBJECTIVE

Our objective was to determine, for the period October 1997 through September 2002, whether
the State agency claimed Title IV-E maintenance and associated administrative costs only for
children under the age of 19.

SUMMARY OF FINDING

For the period October 1997 through September 2002, the State agency did not always claim
Title IV-E maintenance and associated administrative costs only for children under the age of 19.
As required, the State agency did not file any Title IV-E claims for services provided to 63 of
100 sampled children after they reached the age of 19. However, the State agency filed
unallowable Title IV-E claims on behalf of the 37 remaining sampled children for services
provided after they turned 19.

Based on our sample results, we estimated that the State agency improperly claimed at least
$1,641,903 (Federal share) in Title IV-E maintenance and associated administrative costs on
behalf of children aged 19 or older in the 65 counties reviewed.

RECOMMENDATIONS

We recommend that the State agency:

      refund to the Federal Government $1,641,903 (Federal share), including $1,002,540 in
       unallowable maintenance costs and $639,363 in unallowable administrative costs, for the
       period October 1997 through September 2002;



                                                 i
      work with ACF to identify and resolve any unallowable claims for maintenance costs for
       children aged 19 or older made after September 2002 and refund the appropriate amount;
       and

      work with the counties to establish controls to identify and prevent claims for Title IV-E
       reimbursement for children aged 19 or older.

STATE AGENCY COMMENTS

In its comments on our draft report (Appendix E), the State agency disagreed with our finding
and recommendations. The State agency questioned our authority to conduct the audit and stated
that our recommendations were without merit and contrary to law.

OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing the State agency’s comments, we maintain the validity of our recommendations,
as well as our conclusion that the State agency did not always comply with Federal Title IV-E
age requirements.




                                                ii
                                                  TABLE OF CONTENTS
                                                                                                                                   Page

INTRODUCTION.......................................................................................................................1

          BACKGROUND ..............................................................................................................1
              Title IV-E Foster Care Program............................................................................1
              Pennsylvania’s Title IV-E Program ......................................................................1
              Adoption and Foster Care Analysis and Reporting System..................................2
              Audits of the State Agency’s Title IV-E Claims ..................................................2

          OBJECTIVE, SCOPE, AND METHODOLOGY ............................................................2
               Objective ...............................................................................................................2
               Scope.....................................................................................................................2
               Methodology .........................................................................................................2

FINDING AND RECOMMENDATIONS................................................................................3

          AGE REQUIREMENTS ..................................................................................................4

          UNALLOWABLE COSTS FOR CHILDREN WHO EXCEEDED
           THE MAXIMUM AGE.................................................................................................4

          RECOMMENDATIONS..................................................................................................5

          STATE AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
           RESPONSE....................................................................................................................5
               Scope of Audit ......................................................................................................5
               Program Operating Responsibilities .....................................................................6
               Audit Focus Period ...............................................................................................7
               Maintenance Costs ................................................................................................8
               Associated Administrative Costs ..........................................................................8

APPENDIXES

          A – PREVIOUSLY ISSUED REPORTS RELATED TO THIS AUDIT

          B – SAMPLING METHODOLGY

          C – SAMPLE RESULTS AND ESTIMATES FOR MAINTENANCE COSTS

          D – TITLE IV-E COSTS CLAIMED FOR 37 SAMPLED CHILDREN AGED 19
                OR OLDER

          E – STATE AGENCY COMMENTS DATED JULY 15, 2009



                                                                    iii
                                       INTRODUCTION

BACKGROUND

Title IV-E Foster Care Program

Title IV-E of the Social Security Act (the Act), as amended, authorizes Federal funds for States
to provide foster care for children under an approved State plan. At the Federal level, the
Administration for Children and Families (ACF) administers the program.

For children who meet Title IV-E foster care requirements, including age requirements, Federal
funds are available to States for maintenance, administrative, and training costs:

      Maintenance costs cover room and board payments to licensed foster parents, group
       homes, and institutional care facilities. The Federal share of maintenance costs is based
       on each State’s Federal rate for Title XIX (Medicaid) expenditures. During our audit
       period, the Federal share of Pennsylvania’s maintenance costs ranged from 52.85 percent
       to 54.21 percent.

      Administrative costs cover staff activities such as case management and supervision of
       children placed in foster care and children considered to be Title IV-E candidates,
       preparation for and participation in court hearings, placement of children, recruitment and
       licensing for foster homes and institutions, and rate setting. Also reimbursable under this
       category is a proportionate share of overhead costs. The Federal share of administrative
       costs allocable to the Title IV-E program is 50 percent.

      Training costs cover the training of State or local staff to perform administrative activities
       and the training of current or prospective foster care parents, as well as personnel of
       childcare institutions. Certain State training costs qualify for an enhanced 75-percent
       Federal funding rate.

Pennsylvania’s Title IV-E Program

In Pennsylvania, the Department of Public Welfare (the State agency) supervises the Title IV-E
foster care program through its Office of Children, Youth, and Families. The State agency
administers the program through the 67 counties. The counties determine Title IV-E eligibility
and contract with foster parents, group homes, and institutional care facilities to provide foster
care services.

Contractors submit invoices to the counties for the care provided. The counties pay the
invoices and then submit quarterly summary invoices for maintenance and training costs to the
State agency. The counties claim administrative costs separately. The State agency
consolidates the claims from all 67 counties and submits Quarterly Reports of Expenditures
and Estimates (Forms ACF-IV-E-1) to ACF to claim Federal funding.




                                                 1
Adoption and Foster Care Analysis and Reporting System

Federal regulations (45 CFR § 1355.40(a)) require each State agency to establish an Adoption
and Foster Care Analysis and Reporting System (AFCARS). Appendix A of these regulations
describes the foster care data elements collected in the AFCARS. State agencies use the
AFCARS to collect case-level information about children in foster care and children who are
adopted under the auspices of the State agency. State agencies are required to submit AFCARS
data to ACF semiannually for the periods October 1 through March 31 and April 1 through
September 30.

Audits of the State Agency’s Title IV-E Claims

We are performing a series of audits of the State agency’s Title IV-E foster care claims.
Appendix A lists the four previously issued reports, which focused on Philadelphia County. This
report, the fifth in the series, focuses on foster care claims made on behalf of children aged 19 or
older in 65 of the State’s 67 counties. A sixth report will focus on foster care claims submitted
for Allegheny County.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine, for the period October 1997 through September 2002, whether
the State agency claimed Title IV-E maintenance and associated administrative costs only for
children under the age of 19.

Scope

Our review covered 646 children in 65 counties who reached the age of 19 before or during our
audit period but continued to appear on the State agency’s AFCARS submissions. During our
audit period, the State agency submitted 10 semiannual AFCARS reports.

Some of the services that we identified as unallowable for reimbursement under Title IV-E may
have been allowable for reimbursement through other Federal programs. However, determining
the allowability of costs for other Federal programs was not within the scope of this audit.

We reviewed only those internal controls considered necessary to achieve our objective.

We performed our fieldwork at the State agency in Harrisburg, Pennsylvania, from August to
December 2008.

Methodology

To accomplish our objective, we:

       reviewed Federal criteria related to Title IV-E foster care claims;



                                                 2
           interviewed State agency personnel regarding the State agency’s Title IV-E foster care
            claims;

           reviewed the State agency’s accounting system and reconciled vouchers to the Quarterly
            Reports of Expenditures and Estimates to identify all maintenance costs claimed for
            Federal reimbursement during the audit period;

           reviewed the State agency’s 10 semiannual AFCARS submissions to determine each
            child’s date of birth, whether the child participated in the Title IV-E foster care program,
            and the county claiming the child;

           identified, for the 65 counties reviewed, a sampling frame of 646 children aged 19 or
            older listed in the 10 AFCARS submissions;

           selected a random sample of 100 children from the sampling frame (Appendix B);

           reviewed Client Information System data, 1 vital records, and county billing invoices
            provided by the State agency documenting the age and the Title IV-E maintenance costs
            claimed for each of the 100 sampled children; and

           estimated the total dollar value of all Title IV-E maintenance claims for services provided
            to children aged 19 or older (Appendix C) and the associated administrative costs.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our finding and conclusions based on our audit objective.

                                  FINDING AND RECOMMENDATIONS

For the period October 1997 through September 2002, the State agency did not always claim
Title IV-E maintenance and associated administrative costs only for children under the age of 19.
As required, the State agency did not file any Title IV-E claims for services provided to 63 of the
100 sampled children after they reached the age of 19. However, the State agency filed
unallowable Title IV-E claims on behalf of the 37 remaining sampled children for services
provided after they turned 19.

Based on our sample results, we estimated that the State agency improperly claimed at least
$1,641,903 (Federal share) in Title IV-E maintenance and associated administrative costs on
behalf of children aged 19 or older in the 65 counties reviewed.




1
    The Client Information System is a statewide database of individuals who participate in social service programs.


                                                            3
AGE REQUIREMENTS

Section 472(a) of the Act states that children for whom States claim Title IV-E funding must
meet the eligibility requirements for Aid to Families with Dependent Children (AFDC) as
established in section 406 or section 407 (as in effect on July 16, 1996). 2 Section 406(a)(2), as in
effect on July 16, 1996, stated that the children must be “(A) under the age of eighteen, or (B) at
the option of the State, under the age of nineteen and a full-time student in a secondary school
(or in the equivalent level of vocational or technical training), if, before he attains age nineteen,
he may reasonably be expected to complete the program of such secondary school (or such
training).” 3

UNALLOWABLE COSTS FOR CHILDREN WHO
EXCEEDED THE MAXIMUM AGE

The documentation that we reviewed showed that the State agency claimed Title IV-E
maintenance costs totaling $227,525 (Federal share) for 37 sampled children who were at least
19 years of age when the services were provided. (See Appendix D for details on the 37
children.) These claims did not comply with Federal age requirements. For example, one child
reached the age of 19 on September 20, 1999. The State agency improperly claimed Title IV-E
costs on behalf of this child until June 28, 2001, for a total Federal share of $20,739 in
unallowable costs. 4

Based on our sample results, we estimated that the State agency improperly claimed $1,002,540
(Federal share) in Title IV-E maintenance costs for the 65 counties. Including associated
administrative costs of $639,363 (Federal share), we estimated that the State agency improperly
claimed at least $1,641,903 (Federal share) in Title IV-E maintenance and associated
administrative costs. 5 The administrative costs also were unallowable. The State agency
claimed costs for children aged 19 or older because it did not have adequate controls to identify
claims submitted by the counties for children who did not meet Title IV-E age requirements.




2
 The Personal Responsibility and Work Opportunity Reconciliation Act of 1996 repealed AFDC and established in
its place the Temporary Assistance for Needy Families block grant. However, Title IV-E foster care requirements
look back to the 1996 AFDC criteria for eligibility.
3
 ACF’s “Child Welfare Policy Manual,” section 8.3A.2, Question and Answer No. 1, also addresses the issue of
foster care eligibility for children over the age of 18.
4
 The State agency ceased claiming Title IV-E reimbursement for all of the children in our sample no later than the
reporting quarter of their 21st birthdays.
5
 We calculated unallowable administrative costs by dividing the State agency’s total Title IV-E claims for
administrative costs ($593,233,356 (Federal share)) by its total Title IV-E claims for maintenance costs
($857,954,391 (Federal share)) plus training costs ($72,252,983 (Federal share)). We then applied the resultant
percentage to the estimated $1,002,540 (Federal share) in unallowable maintenance costs.


                                                         4
RECOMMENDATIONS

We recommend that the State agency:

      refund to the Federal Government $1,641,903 (Federal share), including $1,002,540 in
       unallowable maintenance costs and $639,363 in unallowable administrative costs, for the
       period October 1997 through September 2002;

      work with ACF to identify and resolve any unallowable claims for maintenance costs for
       children aged 19 or older made after September 2002 and refund the appropriate amount;
       and

      work with the counties to establish controls to identify and prevent claims for Title IV-E
       reimbursement for children aged 19 or older.

STATE AGENCY COMMENTS AND OFFICE OF
INSPECTOR GENERAL RESPONSE

In its July 15, 2009, comments on our draft report, the State agency disagreed with our finding
and recommendations. The State agency questioned our authority to conduct the audit and stated
that our recommendations were without merit and contrary to law. The State agency also said
that we had singled out Pennsylvania for an audit of unprecedented size and scope, unlawfully
assumed ACF’s program operating responsibilities, focused on practices from many years ago
rather than on current practices, and lacked a foundation for our questioned costs.

We have summarized the State agency’s comments, along with our response, below, and we
have included those comments as Appendix E. We have excluded the exhibits accompanying
the State agency’s comments because of their volume and because they relate to prior reports.

Scope of Audit

State Agency Comments

The State agency said that Pennsylvania was being singled out for an unprecedented audit.
According to the State agency, “Pennsylvania stands alone among the fifty States in being
subjected to such a far-reaching, overly-detailed, and multi-year review of its Title IV-E claims.”

Office of Inspector General Response

We did not single out Pennsylvania for this audit. We often conduct extensive audits of
programs. For example, recent multiyear audits of comparable scope included audits of
Medicaid school-based services and Medicaid costs under a waiver agreement in California. We
also conduct audits of relatively comparable scope in States with smaller total claim amounts.




                                                 5
Program Operating Responsibilities

State Agency Comments

The State agency said that ACF had unlawfully transferred, and the Office of Inspector General
(OIG) had wrongfully assumed, program operating responsibilities in violation of the Inspector
General (IG) Act of 1978, as amended (5 U.S.C. App. § 9(a)(2)). The State agency also said that
we lacked the requisite independence and objectiveness in deciding to initiate and conduct this
audit.

Office of Inspector General Response

There is no basis for the State agency’s argument that we unlawfully assumed program operating
responsibilities. The IG Act, as interpreted by the applicable case law, may in some cases
restrict OIG from conducting “regulatory” audits that are the responsibility of the program
agency. However, our audit was not regulatory in nature. Rather, we conducted a compliance
audit designed to identify the improper expenditure of Federal dollars for the Pennsylvania foster
care program. None of the court cases on which the State agency based its objection questioned
OIG’s authority and responsibility to conduct such audits. In the more recent decision of
University of Medicine and Dentistry of New Jersey v. Corrigan, 347 F.3d 57, 67 (3rd Cir. 2003),
involving the expenditure of Medicare funds, the U.S. Court of Appeals for the Third Circuit
held that “routine compliance audits” that are designed to “enforc[e] the rules” are a proper OIG
function even if the ability to conduct such audits is shared with that of the program agency.
Moreover, the U.S. Court of Appeals for the Fifth Circuit stated in its opinion that, under
section 9(a)(2) of the IG Act, “for a transfer of function to occur, the agency would have to
relinquish its own performance of that function” (Winters Ranch Partnership v. Viadero, 123
F.3d 327, 334 (5th Cir. 1997); see also United States v. Chevron, 186 F.3d 644, 648 (5th Cir.
1999)). ACF has continued to perform its own periodic reviews of eligibility in State programs,
as required by ACF regulations, and thus at no time did it relinquish its program operating
function.

We also do not agree that we lacked the requisite independence and objectivity for this audit.
ACF did request this audit; however, OIG regularly responds to requests from Members of
Congress, States, ACF, and other program agencies, as well as the general public. There is no
basis to conclude that the source of a request undermines the independence with which an audit
or other project is performed. The State agency cited U.S. v. Montgomery County Crisis Center,
676 F. Supp. 98, 99 (D. Md. 1987) to support its position. In that case, however, the U.S.
District Court refused to enforce a subpoena issued by the Department of Defense OIG because
it was issued at the behest of another agency and because it related to a security matter that “was
outside the Inspector General’s area of regular responsibility.” The expenditure of Federal funds
for foster care is neither a security issue nor outside the IG’s area of regular responsibility.




                                                 6
Audit Focus Period

State Agency Comments

The State agency said that the audit improperly focused on practices from many years ago rather
than on current practices affecting the quality of childcare services and that Congress was
concerned about this type of review when it enacted section 1123A of the Act (42 U.S.C.
§ 1320a-2a). The State agency also said that we improperly conducted an audit of claims
submitted outside the Federal record retention period. Citing 45 CFR § 74.53, 6 the State agency
said that a State generally is not required to retain financial records or supporting documents for
more than 3 years and therefore should not be subject to an audit of claims beyond the 3-year
record retention period.

Office of Inspector General Response

This audit focused on whether the State agency claimed Federal reimbursement only for children
who had not exceeded the maximum allowable age established by Federal law. If the State
agency claimed an erroneous payment for a child who was ineligible for Title IV-E maintenance
payments, the overpaid Federal funds must be refunded.

With respect to congressional concern, section 1123A of the Act provides authority to withhold
funds if a State’s Foster Care and Adoption Program substantially fails to conform to the State
plan. This provision requires the Secretary to implement a system of program reviews through
regulations that specify, among other things, when the reviews will take place. However, the
Departmental Appeals Board (DAB) has ruled that the provision “does not apply to reviews of
past maintenance payments for which a state had claimed FFP [Federal financial participation]
 . . . ” (New Jersey Department of Human Services, DAB No. 1797, page 3 (2001)).

The record retention period cited by the State agency does not preclude our review of records
that the State agency provides, or has in its possession, during the audit. Federal regulations (45
CFR § 74.53(e)) provide that “[t]he rights of access . . . are not limited to the required retention
period, but shall last as long as records are retained.” The requirement for a grantee to keep
records for a specified period protects the grantee in situations in which records are destroyed
after the expiration of the retention period pursuant to a statewide records management plan.
However, if the grantee has maintained records beyond the retention period, 45 CFR § 74.53(e)
is clear that the Department of Health and Human Services, including OIG, has access to those
records. Further, the DAB has ruled that agencies may disallow costs based on grantee records
retained beyond the 3-year retention period (Community Health and Counseling Services, DAB
No. 557, page 4 (1984)). Our audit identified unallowable costs based on our review of
documentation and case files provided by the State agency.




6
 Effective September 2003, the applicable regulation is 45 CFR § 92.42, which provides a substantially similar
3-year retention period. However, our audit period fell entirely before September 2003.


                                                         7
Maintenance Costs

State Agency Comments

The State agency questioned our calculations of the unallowable Federal maintenance costs
claimed for two sampled children (sample numbers 11 and 65).

Office of Inspector General Response

After reviewing the State agency’s comments, we maintain that our calculations were accurate.
For sample number 11, the State agency indicated that the invoices totaled only $7,076, not the
$10,277 that we calculated. The State agency apparently was unaware of an invoice for $6,773,
of which $6,472 was claimed for the period after the child turned 19. For sample number 65, the
State agency indicated that the invoices submitted after the child turned 19 totaled $2,997, or
$419 more then we questioned. The difference was attributable to the fact that we questioned
only the $2,578 claimed for the period beginning on the child’s 19th birthday.

Associated Administrative Costs

State Agency Comments

The State agency said that we had improperly recommended the disallowance of associated
administrative costs. The State agency said that because Pennsylvania identified and allocated
administrative costs through a random-moment timestudy, it was incorrect to assume that a
disallowance of a maintenance claim would necessarily result in a proportionate decrease in
associated administrative costs. The State agency also said that our calculation of associated
administrative costs was unsound because it used a statewide ratio based on all 67 counties,
whereas the audit excluded Philadelphia and Allegheny counties, the two counties with the
largest populations of Title IV-E-eligible children. The State agency added that including costs
from these two counties in the calculation might skew the ratio applied to the 65 smaller
counties.

Office of Inspector General Response

When maintenance costs are not eligible for Title IV-E funding, the administrative costs
associated with the ineligible maintenance costs are likewise ineligible.

OMB Circular A-87 allows States to identify administrative costs related to a specific cost
objective or to allocate the costs according to an approved allocation methodology, such as a
random-moment timestudy or another quantifiable measure. The State agency allocated those
costs based on an approved allocation methodology. Similarly, we determined the unallowable
administrative costs associated with the ineligible maintenance claims by applying a
proportionate share of the administrative costs to the total costs, including both maintenance and
training costs. We maintain that our approach was reasonable. The State agency did not offer an
alternative method of calculating administrative costs on either a statewide or county-specific
basis.



                                                8
APPENDIXES
                                                                               APPENDIX A


            PREVIOUSLY ISSUED REPORTS RELATED TO THIS AUDIT


“Costs Claimed Under Title IV-E Foster Care Program for Children in Castille Contracted
Detention Facilities From October 1, 1997, to September 30, 2002” (A-03-04-00586, issued
October 3, 2005).

“Claims Paid Under the Title IV-E Foster Care Program for Children in Castille Contracted
Detention Facilities From October 1, 1997, to September 30, 2002” (A-03-05-00550, issued
September 20, 2007).

“Philadelphia County’s Title IV-E Claims for Children for Whom the Contractual Per Diem Rate
for Foster Care Services Exceeded $300 From October 1997 Through September 2002”
(A-03-06-00564, issued December 13, 2007).

“Philadelphia County’s Title IV-E Claims Based on Contractual Per Diem Rates of $300 or Less
for Foster Care Services From October 1997 Through September 2002” (A-03-07-00560, issued
May 22, 2008).
                                                                                     APPENDIX B


                                 SAMPLING METHODOLOGY

SAMPLING FRAME

Our sampling frame consisted of 646 children aged 19 or older who were listed in 10 Adoption and
Foster Care Analysis and Reporting System (AFCARS) submissions made by the Pennsylvania
Department of Public Welfare (the State agency). The AFCARS submissions covered the period
October 1997 through September 2002.

SAMPLE UNIT

The sample unit was a child aged 19 or older who appeared on any of the State agency’s AFCARS
submissions during the audit period.

SAMPLE DESIGN

We used a simple random sample.

SAMPLE SIZE

We selected for review a sample of 100 children.

SOURCE OF RANDOM NUMBERS

We used an approved Office of Inspector General, Office of Audit Services, statistical software
package to generate the random numbers for selecting the sampled children.

METHOD OF SELECTING SAMPLE ITEMS

We identified from the 10 AFCARS submissions the children aged 19 or older. We excluded
children from Philadelphia and Allegheny Counties. We reviewed the record of each child in each
of the 10 AFCARS submissions to identify children who appeared on more than one submission
and developed a “unique child list.” We then sequentially numbered each record from the unique
child list. After generating 100 random numbers between 1 and 646, we selected the corresponding
records from our sampling frame.

ESTIMATION METHODOLOGY

We used an approved Office of Inspector General, Office of Audit Services, statistical software
package to estimate the total Federal dollar value of Title IV-E maintenance claims for services
provided to children aged 19 or older.
                                                                          APPENDIX C


                    SAMPLE RESULTS AND ESTIMATES
                       FOR MAINTENANCE COSTS




                                  Sample Results

                Value of Services
Number of         Claimed for                      Number of            Value of
Children in         Sampled                       Children With        Unallowable
 Sampling          Children            Sample      Unallowable          Services
  Frame         (Federal Share)         Size        Services         (Federal Share)

   646               $361,926             100           37               $227,525



                          Estimated Unallowable Costs
              (Limits Calculated for a 90-Percent Confidence Interval)

                         Point estimate         $1,469,814
                         Lower limit             1,002,540
                         Upper limit             1,937,089
                                                                      APPENDIX D


TITLE IV-E COSTS CLAIMED FOR 37 SAMPLED CHILDREN AGED 19 OR OLDER

                                              Date of      Federal Share
                                             Discharge    of Maintenance
       Sample     Date of    Date of 19th      From       Costs at the Age
       Number      Birth      Birthday      Foster Care    of 19 or Older
         1       6/23/1980    6/23/1999      6/15/2001          $12,189
         7       2/12/1979    2/12/1998       6/5/1998            4,193
         10     10/17/1981   10/17/2000      1/29/2002            3,655
         11       4/4/1980     4/4/1999            NA            10,277
         16      8/18/1977    8/18/1996      8/18/1998           25,297
         17      6/29/1981    6/29/2000      11/8/2001            4,519
         19      4/20/1980    4/20/1999      6/18/1999               71
         20      2/17/1983    2/17/2002            NA             4,074
         25      9/20/1980    9/20/1999      6/28/2001           20,739
         26      3/19/1983    3/19/2002       6/7/2002            2,740
         30      8/22/1978    8/22/1997      8/22/1999           11,525
         31       8/5/1977     8/5/1996       3/6/1998            1,440
         34       2/5/1983     2/5/2002       7/9/2002            4,244
         35      4/23/1983    4/23/2002      6/12/2002            1,958
         38       6/8/1981     6/8/2000            NA            11,923
         39       6/3/1982     6/3/2001      1/29/2002            1,826
         40      2/20/1981    2/20/2000      2/23/2001            4,379
         41       9/8/1979     9/8/1998      7/23/1999            9,829
         48      9/18/1978    9/18/1997       1/1/1999           19,353
         50      6/16/1981    6/16/2000            NA               998
         54       4/9/1978     4/9/1997     12/22/1997            2,357
         55       5/5/1983     5/5/2002      6/21/2002            1,996
         56      6/16/1979    6/16/1998       9/1/1998              986
         59       7/6/1983     7/6/2002            NA             2,426
         60       5/5/1983     5/5/2002            NA             3,077
         65      7/17/1979    7/17/1998     10/15/1998            2,578
         68      7/25/1983    7/25/2002            NA             1,516
         73       8/9/1978     8/9/1997       8/5/1998           14,690
         74      1/23/1979    1/23/1998       2/9/1999            2,936
         76     11/24/1981   11/24/2000       6/8/2001            1,643
         77     10/12/1978   10/12/1997       4/6/1998            6,714
         78      8/21/1981    8/21/2000      11/2/2000            5,287
         79      8/24/1978    8/24/1997      6/10/1998            8,085
         80      5/30/1978    5/30/1997      5/28/1998           11,258
         87     11/10/1981   11/10/2000     11/28/2000            1,194
         92      11/4/1980    11/4/1999      11/4/2001            1,456
         97     11/27/1981   11/27/2000      3/13/2002            4,097
        Total                                                  $227,525
                                                                                                        APPENDIXE
                                                                                                          Page 1 of 13




                                                                                  One Logan Square
                                                                                  27th Floor
                                                                                  Philadelphia, PA ~9103·6933
                                                                                  215.S68.o30o/facsimile

                                                                                   www.hangley.com

                                                                                   PHILADELPHIA, PA

                                                                                   CHERRY   HILl,NJ
Mark A. Aronchick.                                                                 H ARRISBURG, PA
Direct Dial: 215.496.7002
E-mail: maronchlck@hangley.com                                                     NORRISTOWN, PA




                                            July 15, 20 0 9

HAND DELIVERY

Stephen Virbitsky, Regional Inspector General for Audit Services
United States Department of Health and Human Services
Office of Inspector General
Office of Audit Services
150 South Independence Mall West, Suite 316
Philadelphia, PA 19106-3499

                     Re:    Report Number: A-03-08- o0 553

Dear Mr. Virbitsky:

              I am writing on behalf of the Commonwealth of Pennsylvania, Department of
Public Welfare, in response to the May 15,2009 draft report of the Office of Inspector
General ("GIG") of the Department of Health and Human Services ("HHS"), entitled
"Pennsylvania's Title IV-E Claims on Behalf of Children Who Exceeded the Maximum Eligible
Age From October 1997 to September 2002" (the "Draft Report").
                In the Draft Report, GIG recommends that Pennsylvania "refund" to the
 federal government $1,002,540 in allegedly improper foster care maintenance placement
 costs for children aged 19 or older. plus an additional $639,363 in what DIG characterizes
 as "associated administrative costs," for a total "refund" of $1,64 1 ,9 0 3. (Draft Report at 5·)
 OIG further recommends that Pennsylvania "work with" the Administration for Children and
 Families ("ACF") "to identify and resolve any unallowable claims for maintenance costs for
 children age 19 or older made after September 2002" and "work with the counties to
 establish controls to identify and prevent claims for Title IV-E reimbursement for children
 age 19 or older." (Jd.)
               All of DIG's recommendations are without merit and contrary to law. As 

 explained in my letters of April 16, 2007, January 31, 2008, and October 20, 2008, 

 responding to previous DIG draft and final reports concerning other phases of this multi­
                                                                                                           APPENDIXE 

                                                                                                            Page 2 of 13




Stephen Virbitsky, Regional Inspector General for Audit Services
july 15, 200 9
Page 2


phase audit of aU of Pennsylvania's Title IV~E claims (the "Audlt"),t and as further explained
below, Pennsylvania opposes the entire OIG Aud it. induding any recommendations
stemming from it, because:

                 •	      OIG has singled out Pennsylvania by conducting this Audit of
                         unprecedented size and scope without an adequate basis and in
                         contraventIon of federal law;

                 •	      By conducting the Audit, OIG is wrongfully assuming ACPs program
                         operating responsibilities in violation of the Inspector General Act of
                         1978. 5 U.5.C App. 3;
                 •	      The Audit improperly focuses on past practices ratherthan
                         Pennsylvania's current child welfare system; and

                 •	      OIG has not provided an appropriate factual, mathematical or legal
                         basis for its recommendations that Pennsylvania return millions of
                         dollars in maintenance costs and thousands of dollars in "associated
                         administrative costs" to the federal. government.

Based on aU of these critical problems with the Audit, Pennsylvania requests that OIG
withdraw the Draft Report, including the recommendations in it, and terminate all aspects of
the Audit.
         A. 	    OIG Has Unlawfully And Without Any Proper Basis Singled Out
                 Penn~ytvania In This Unprecedented Audit

                By letter dated November 1.9,2003. OIG first announced its intention to
conduct an audit "of the Commonwealth of Pennsylvania's claims for payments made under
the Title IV-E Foster Care Program for Federal Fiscal. Years 1998 through 2002." (See
1.1/19/03 Letter from Stephen Virbitsky to Michaell. Stauffer. attached as Exh ibit D.) In
accordance with that notice, O!G is currently auditing the entirety of Pennsylvania's Title IV­
E claims for a full five-year period. putting at issue more than $1.5 blUion in public funds
that was spent years ago to provide critical services to Pennsylvania's needy children.

                The Audit is both draconian and unprecedented. Pennsylvania stands alone
 among the fifty states in being subjected to such a faNeaching, overly-detailed. mUlti-year
 review of its Title IV·E claims. GIG's published work plans and the documents it provided in


          Because Pennsylvania opposes DIG's recommendatIons in the Draft Report for many of the same
 reasons it has opposed OIG's recommendations in its previous draft and final reports, this letter repeats many
 of the points 1made in my letters of April 16, :aool.january 31,2008 and October 20,2008. Those letters are
 enclosed with and incorporated into thIs letter as Exhibits A. Band C, respectively.
                                                                                         APPENDIXE
                                                                                          Page 3 of 13




Stephen Virbitsky, Regional Inspector General for Audit Services
July 15.2009
Page 3


response to Pennsylvania's prior FUIA requests do not identify any national audit
encompassing the type of broad review it is performing in Pennsylvania. 111 its rsponses to
Pennsyviania's comments on this point in previous phases of this Audit, OIG also has not
been able to identify any other state being subjected to this type of extensive multi-phase
audit concerning regularly-filed foster care maintenance claims. (See OIG's September 20,
2007 Report No. A-03-05-00S50. entitled "Claims Paid Under the Title lV-E Foster Care
Program for Children in Castille Contracted Detention Facilities from October 1, 1997 to
September 30,2002" ("September 20,2007 Final Report"). at 12; OIG's May 22, 2008
Report No. A'03-07-ooS60, entitled "Philadelphia County's Title IV-E Claims Based on
Contractual Per Diem Rates of $300 or Less for Foster Care Services from October 1997
Through September 2002" ("May 22, :2008 Final Report"), at 12.) At the same time, neither
OIG nor ACF has provided any evidence suggesting that Pennsylvania's ntle IV-E program
had a significantly greater error rate than that of any other state program.

               Although OIG has previously denied that it has singled out Pennsylvania.
daiming that Pennsylvania is simply the first state selected as part of "a multi state review
of juvEnile justice placement costs claimed under Tide !V-E" (see September 20,2007 Final.
Report at 12.). this Audit is indisputably not limited to the "juvenile justice placement costs"
referred to by DIG. Indeed, GIG has expressly acknowledged that even though it originally
intended to audit only juvenile justice placement costs. ACF requested that it expand the
scope afthe audit to coverthe entirety of Pennsylvania's Title IV·E claims over a multi-year
period. (See 4/5/2000 Letter from David M. Long to John H. Bungo,attached as Exhibit E.)
Because OIG granted that request, the purported existence of a "multistate review of
juvenile justice placement costs" in no way explains why Pennsylvania alone is being
subjected an aU-encompassing audit ofthe entirety of its Title IV·E claims over a five-year
period. In addition. OIG has failed to identify even one other state that is facing even the
more Umited "review of juvenile justice placement costs" - let atone the type of all­
encompassing audit of aU Title IV·E claims avera mUlti-year period that Pennsylvania faces
here.
                 OIG also has stated that it initiated the Audit because of a general concern
over Pennsylvania's increased amount of claims and because of "an ACF probe sample of
50 Title IV-E statewide foster care cases conducted in :1998. of which 44 cases had multiple
errors." (See 3/9/04 Letter from Stephen Yirhitsky to MIchael l. Stauffer. attached as
Exhibit L) However, GIG's purported retiance upon a smaH and statistically unreliable
sample of unique claims submitted in 1998 as the basis for launching a comprehensive
audit of all Title IV-E daims Pennsylvania submitted from 1998 until 2002 lacks foundation
and makes no sense.

              The 1998 probe sample referred to by OIG as the basis for the Audit did not
involve Pennsylvania's general Title IY-E population but. as expressly acknowledged by ACF
Regional Administrator David 1. lett, focused only on a retroactive claim for a narrow group
of "children who were determined ineligible for [Title] lV-A Emergency Assistance" by virtue
                                                                                       APPENDIXE
                                                                                        Page 4 of 13




Stephen Virbitsky, Regional Inspector General for Audit Services
July 15. 20 0 9
Page 4


of the luvenile justice restrictions belatedly imposed on that program and who were
"redetermined eligible by the Department of Public Welfare under the Foster Care and
Adoption Assistance Program •.. [under] Title IV-£' ..." (See 2/10/99 Letter from David 1­
lett to feather O. Houston, attached as Exhibit G.) That these highly unique claims ­
invQlving a limited group of children who were reclassified after a change in federal law ­
were found to have certain errors is neither surprising nora reason to question the
operation of Pennsylvania's overall Title IV·E program. And it provides no legitimate
justification forthls highly burdensome and unprecedented Audit that is well outside the
parameters of the normal Title IV-E review process.

               In light ofthe above circumstances, it is plain that, notwithstanding OIG's
protestations to the contrary, OIG has Singled out Pennsylvania for selective, arbitrary and
unlawful treatment. See, e.g.; Burlington Northern and Santa Fe Ry. Co. v. Surface Transp.
Bd., 403 F.3d 771,777 (D.C. Gr. 2005) ("Where an agency applies different standards to
similarly situated entities and fails to support this disparate treatment with a reasoned
explanation and substantial evidence in the record. Its action is arbitrary and capricious
and cannot be upheld."); Petroleum Communications. Inc. v. F.C.C., 22 F·3d 116 4. 1172 (D.C.
Cir. 1994) ("We have long held that an agency must provide adequate explanation before it
treats similarly situated parties differently."). The circumstances also suggest that ACF may
have asked OIG to perform the Audit for retaliatory or other equally improper reasons wholly
unrelated to the administration of Pennsylvania's Title IV~E program. In any event, it is dear
that no basis exists for DIG to arbitrarily subject Pennsylvania to this aU~encompassing
multi.phase Audit. For this reason atone, the Draft Report should be withdrawn.

        B. 	   ACF Has Unlawfully Transferred. And01G Has Unlawfully Assumed. ACPs
               Program Operating Responsibilities

               The Inspector General Act (the "Act") established the Office of Inspector
General in order to facilitate "objective inquiries into bureaucratic waste ... and
mismanagement!' NASA v. Fed. Labor Reiations Auth., 527 U.S, 229. 2 4 0 (1999) (emphasis
added). By creating OIG, Congress also intended "to consolidate existing auditing and
investigative resources to more effectively combat fraud. abuse. waste and mismanagement
in the programs and operations of [various executive] departments and agencies." S. Rep.
No. 1071. 95th Cong., 2d Sess. 1 (1978), reprinted in 1978 U.s.C.C.A.N. 267 6 • 267 6 .
However, while Congress gave OIG broad audit and investigative authority to carry out its
oversight function, see 5 U.S.C.App . 3 § 6(a), the Act explicitly required OIG to remain
"independent and objective" from the federal agencies it oversees. See ld. at 3 § 3(a).
               To ensure that OIG retains its critical. independence, the Act expressly
 prohibits OIG from assuming "program operating responsibilities," 5 U.s.c. App. 3
 § 9(a)(2). Program operating responsibilities are "those activities which are central to an
 agency's statutory mission [as distinguished from] those which are purely internal or
 administrative." United States v. Hunton & Williams, 952 F. Supp. 843, 85 0 (O.D.C. 1997)·
                                                                                             APPENDIXE
                                                                                                   Page 5 of 13




Stephen Virbitsky, Regional Inspector General for Audit Services
July 15. 200 9
Page 5


              Federal courts have regularly recognIzed the importance of that distinction,
They have consistently held that OIG is not authorized to conduct "regulatory compliance
audits" that do not further the oversight purposes set forth in the Act but. instead, are of the
type within the responsibilities of the federal agency itself. See, e.g., Truckers United for
Safety v. Mead, 251 F.3d 183 (D.C. Or. 2001); Burlington Northern R.R. Co. v. Office of
Inspector General, Railroad Retirement Bd., 983 F.zd 631 (5th eir. 1993). For instance, in
Truckers United for Safety. the United States Court of Appeals for the D.C. Circuit held that
OIG had acted outside the scope of its authority in conducting investigations of motor
carriers' compliance with federal safety regulations. 251 F.3d at 189. In so ruling. the Court
concluded that "Congress did not intend to grant [OIG] authority to conduct investigations
constituting an integral part of DOT programs" and that rOIGl"is not authorized to conduct
investigations as part of enforcing motor carrier safety regulations - a role which is central
to the basic operations of the agency," !d.
                Similarly. in Burlington Northern. the United States Court of Appeals for the
Fifth Circuit concluded that OIG lacked statutory authority to conduct "regulatory
compHance investigations or audits," .....hich it defined as "those investigatlons or audits
which are most appropriately viewed as being within the authority of the agency itself:' 9 83
F.2d at 642.
               [A1s a general rule, when a regulatory statute makes a federal
               agency responsible for ensuring comp!iance with its provisions,
               the Inspector General of that agency will lack the authority to
               make investigations or conduct audits which are designed to
               carry out that function directly.
Id. The Court reasoned that if an Inspector General were to assume an agency's regulatory
compliance function. "his independence and objectiveness - qualities that Congress has
expressly recognized are essential to the functIon of combating fraud, abuse, waste. and
mismanagement - would ... he compromised." .td.
                DIG's Audit of all of Pennsylvania's Title IV-E claims over a five-year period
 faUs squarely within the bounds of a prohibited regulatory compliance audit. OIG is not
 auditing Pennsylvania's claims "forthe purpose of evaluating [AeF's] programs in terms of
 their management, efficiency, rate of error. and vulnerability to fraud. abuses, and other
 problems," Winters Ranch Partnership v. Viadero, 123 F·3 d 327, 333 (5th Cir. 1997); indeed,
 OIG is not focused at all on ACF's performance or the ongoing operation of the federal Title
 IV-E program. Instead, OIG's Draft Report focuses solely on whether Pennsylvania strictly
 complied with all of the statutory. regulatory. and ACF-imposed requirements in its
 submission and documentation ofdaims under Title !V-E of the Social Security Act.

               The issue of Pennsylvania's compliance with the plethora of federal statutory
 and regulatory claiming requirements is not a proper focus of DIG's oversight
                                                                                   APPENDIXE
                                                                                     Page 6 of 13




Stephen Virbitsky, Regional inspector General for Audit Services
July 15.2009
Page 6


responsibilities; the Social Security Act and federal regulations place that program
responsibility squarely on the shoulders of HHS. See, e,g., 42 U.5.C. § 67Mb). Pursuant to
those authorities, ACF is responsible for reviewing aH Title IV·E daim submissions and
deferring or disaliowing any claims of questionable aHowability. See id.; 45 C.F.R. §
201.1S(C). ACF also is responsible for conducting, when necessary, additional reviews of a
state's Title lV-E programs and submissions, including an examination of the "case records
of individual recipients" to ensure that "State agencies are adhering to Federal
requirements ...." Id. § 201.10(a}; see also id. §§ 1355.32, 1355.33· Thus, this Audit falls
within the statutory and regulatory responsibilities of ACF, and cannot be conducted by OIG,
just as the courts determined with respect to the OIG auditsln the Truckers United for Safety
and Burlington Northern decisions.
               Separately, GIG also lacked the requisite «independence and objectiveness"
in deciding to initiate and conduct this oppressive audit of Pennsylvania's Title IV~E daims.
By its own admission, OIG did not independently decide to initiate the audit of
Pennsylvania's Title IV~E claims; it acceded to a request from ACPs Regional Office staff that
it do 50. OIG has stated that it decided to audit Pennsylvania because ACF - not O!G - was
purportedly concerned that errors ACFidentified in the 1998 probe sample of unique
reclassified children might also have somehow occurred in tater periods in the general
population of Title lV·E children. (See 3/9/04 Letter, Ex. F.) Initiating an audit in response
to an agency request hardly qualifies as "independent and objective" oversight. See, e.g.,
 U.S. v. Montgomery County Crisis Center, 676 F. Supp. 98. 99 (D. Md. 19 8 7) (finding OIG's
 issuance of subpoena to be improper because, among other reasons. it "did not initiate the
 investigation on its own but. .. at the behest ofthe [Naval Investigation Service] on a
matter well outside [OIG's] areas of regular responsibility").

                In its May 22, 2008 Final Report. GIG acknowledged that it may be legaHy
prohibited from conducting "regulatory" audits that fat! within the responsibilities of the
program agency, but claimed that this Audit is not such an audit. (May 22. 2008 Final
Report at 12.) Rather, OIG characterized this Audit as simply a '''compliance' audit designed
to identify the improper expenditure of Federal dollars for the Pennsylvania foster care
program." (ld.) OIG additionaHy contended that it has not unlawfuHy assumed ACF's
program operating responsibilities because ACF has purportedly not relinquished its own
responsibilities for that function. (Jd. at 13.) GIG is wrong on both counts.

               First, GIG's use of semantics to justify this Audit as a "compliance" audit, as
 opposed to a "regulatory compliance audit/' should not be permitted. As already
 explained. this Audit involves an examination ofwhether Pennsylvania (notACF) strictly
 complied with aU of the statutory, regulatoryl. and ACF-imposed requirements on the
 submission and documentation of its claims during the Audit period. Such an audit also is
 one of the statutory and regulatory "program operating responsibilities" of ACF - not OIG.
 See 45 CF,R. §§ 201.10, 201.15.1355.32,1355.33. OIG's Audit therefore is an unlawful
                                                                                      APPENDIXE
                                                                                          Page 7 of 13




Stephen Virbitsky, Regional Inspector General for Audit Services
July 15,   200 9
Page?


"regulatory compliance audit" of Pennsylvania - not simply a routine "compliance" audit as
OIG has attempted to characterize it. See Burlington Northern. 9 8 3 F.2d at 64 2 .

               ACF also has plainly relinquished to OIG its operating responsibilities in
conducting this Audit of Pennsylvania. Between the 1998 submission of the probe sample
and OIG's 2003 initiation ofthe Audit, Pennsylvania regularly submitted quarterly claim
reports to ACF for aU Title IV-E placement maintenance and administrative claims. ACF paid
such claims. If ACF had concern about any aspect of Pennsylvania's ntle IV-E claims at that
time - either based on the probe sample results, the amount of the claims. or any other
legitimate grounds - it could have requested additional information, conducted a financial
review, or disallowed such claims. See. e.g.• 42 U.s.C § 674(b)(4); 45 CF.R. § 201.10.
Instead, after presumably reviewing aU daims as they were submitted during this period.
ACF paid Pennsylvania's claims in full. ACF. however,. later decided that these claims
should be reviewed yet again and directed DIG to take on that task even though it was
something it was required to do.. See 45 CF.R. §§ 201.10,201.15. 1355.3 2 ,1355.33.
Therefore, OIGis undeniably performing program responsibilities of ACF in conducting this
Audit of claims that ACF has already reviewed and that the agency is responsible for re­
reviewing as well when necessary; it makes no difference thatACF may have retained its
responsibilities to review other unrelated claims.
               GIG has acted as an arm of ACF throughout this process. OIG initiated the
broad audit not of its own accord but at ACPs request; it has undertaken ACFs statutory
responsibility for ensuring Pennsylvania's compliance with regulatory requirements by
conducting a massive review to determine whether Pennsylvania comptied with all of the
statutory and regulatory requirements for claiming federal participation under the Sodal
Security Act; and it engaged in a "regulatory compliance audit" that is not an appropriate
component of OIG's oversight responsibility but. instead. is a central responsibility of ACF
itself. Under such circumstances, it is dear that ACF has improperly transferred. and OIG
has wrongfully assumed, program operating responsibilities In violation of Section 9(a)(2)
of the Inspector General Act. For that reason alone, OIG lacks statutoty authority to conduct
this Audit and the Draft Report should be withdrawn.

           C. 	    The Auditlmproperty focuses On Practices From Many Years Ago Rather
                   Than On CurrentPractices
              The Audit is also improper in that it relates to daims submitted and paid 

 anywhere between six and eleven years ago. Indeed, both Congress and OIG itself have 

 recognized that such an outdated audit is unhelpful and should not be conducted. 


               The Title IV-E review process has been a concern of the federal government for
 many years. In 1998, Congress imposed a moratorium on DHS activities, prohibiting it from
 collecting any penalties from states based on its reviews because of critical procedural and
 pragmatic problems with the reviews, largely related to their timing. See Committee on
                                                                                              APPENDIXE 

                                                                                               Page 8 of 13




Stephen Virbitsky, Regional Inspector General for Audit Services
July 15. 20 0 9
Page 8


Ways and Means, U.s. House of Representatives. 2000 Green Book: Background Material
and Data on Programs within the Jurisdiction of the Committee on Ways and Means (2000).
Specifically, Congress, child welfare advocates, and state and federal officials were
concerned at the fact that "[rleviews were conducted retrospectively. sometimes for fiscal
years that had long passed, so that current practices were not examined." Id. This problem
was exacerbated by "the late release of finat reports by [OHSI. so their findings and
recommendations were sometimes irrelevant by the time they were issued." fd.
Furthermore, the reviews were "seen as adversarial and punitive, rather than coltaborative
and potentially helpfuL" Id. Indeed, the reviews seemed to focus on generating refunds for
the federai government, rather than improving the quality of care for children in need. [d.;
see also Office of Inspector General, Dep't of Health and Human SeN., Oversight of State
Child Welfare Programs, j (1994) (Congress, state officials and child welfare advocates were
concerned that Hthe reviews elevate process issues over quality of services").
               At about the same time that these concerns were being voiced, OIG
conducted an audit of HHS's Title IV·E review system, and concluded that the review
procedures were, for the most part, inadequate because they were untimely, GIG reported:
"[A]s our examination of 69 review reports shows, reviews have taken place and reports
have been released long after the fiscal year under review was over. On average, Title IV-E
reviews were released over two and a half years after the end of the fiscal year under
review .•. ," DIG, Oversight of State Child Welfare Programs, 14. OIG also echoed
Congress's concern with DHS's reports being irrelevant by the time they were issued and
"windows of opportunity for change [being] dosed by the time the reports are released." fd.
at 15. Given these problems. OIG recommended that HHS make several changes, including
improving "the timeliness of reporting to States the results of federal reviews," Id. at 27·

               In 1994, as a result ofan these concerns, Congress enacted amendments to
the Social Security Act that required HHS to enact regulations for reviewing states' Title IV-E
programs. See 42 U.S.c. § 1320a-2a. Among other things, the amendments direct that the
new regulations include a timetable of the review process to ensure that states are subject
to "timely review[sl." Jd. § 132oa·2a(b)(1}(B). The amendments also prohibit HHS from
assessing liability on a state for past-submitted claims without first .aHowing the state the
opportunity to correct any errors through a. program improvement plan. Id. § 13 2oa ·
2a(b)(3}(B).
                This Audit Is precisely the type of Title IV-E review that Congress was
 concerned about and trying to avoid In promulgating the 1994 amendments to the Sodal
 Security Act; it concerns claims related to long past fiscal years and makes
 recommendations that are no longer relevant. Perhaps most importantly•. its focus is on
 obtaining bHlions of dollars in refunds that wiH place at risk the Commonwealth's current
 child welfare programs - programs that ACF determined were in substantial compliance
 with ACF's regulations and rutes fonowing the 2004 and 2007 reviews it conducted - rather
 than on improving the quality of care needed today for the vulnerable children in those
                                                                                           APPENDIXE
                                                                                            Page 9 of 13




Stephen Virbitsky. Regional Inspector General for.Audit SelVices
July 15, 2009
Page 9


programs. Although the statutory amendments and HHS's regulations based on those
amendments do not explicitly apply to audits conducted by OIG, those amendments and
regulations are rendered meaningless if HHS can evade them by simply asking OIG to
conduct retrospective audits of claims made numerous years ago which focus on process
Issues instead of the quality of chHd care services.
              OIG's own guidelines also strongly suggest that it should not conduct audits
of aged claims. Those guidelines restrict OIG from issuIng dlsaUowances of claims made
outside the federal records retention period, i.e., three years from the date the claim was
made. See HHS Grants Administrative Manual § 74·53; 45 CF.R. § 74.53· With the Audit
having been initiated on November 19. 2003. these guidelines would therefore dictate that
no claims made before November 19.2000 should have been audited or disallowed.

               Although OIG has claimed in previous correspondence that the retention
period should be extended in this case because it announced a different audit in 2000 that
should have put Pennsylvania on notice to retain its records from 1997 onward (see 3/91 0 4
Letter, attached as Exhibit 8, this claim is unfounded. Federal regulations only require a
state to retain records beyond the three year retention period if a review or audit is "started
before the expiration of the 3-year period." See 45 CF.R. § 74.53(b)(1). OIG never started
the "audit" it "announced"in 2000; it never had an entrance conference regarding that
"audit:' Pennsylvania never opened its books and records for OIG to review, and GIG never
conducted any auditing analysiS. OIG therefore cannot justify its review of these claims
submitted from anywhere between six and eleven years ago based on its announcement of
an "audit" in 2000 that it never even began.
                Accordingly, to be consistent with its previously expressed positions and
 those of Congress concerning the problems with aged audits, and in order to abide by its
 own guidelines concerning the time frame of audits, DIG should terminate the Audit and
 withdraw the recommendations made in the Draft Report as well as its previous draft and
 final reports.
        D. 	   OIGts Findings In The Draft Report lack Foundation
                Separate and apart from the selective and arbitrary nature ofthe Audit, OIG's
 lack of legal authority for conducting it, and its outdated nature, DIG's findings in the Draft
 Report lack mathematical, factual and legal support. For these additional reasons,. detailed
 below, the Draft Report should be withdrawn.
                1. 	   DiG Has Not Provided APiOper Basis For Its Claim For Maintenance
                       Costs
                In the Draft Report, DIG contends that Pennsylvania improperly claimed a
 total of $227,5 2 5 in Titte IV·E maintenance costs for 37 chHdren out of the sample unit of
 100 chHdren who allegedly turned 19 before or during the Audit perIod. (See Draft Report at
                                                                                                           APPENDIXE
                                                                                                            Page 10 of 13




Stephen Virbitsky. Regional Inspector General for Audit Services
July 15. 20 0 9
Page 10


4, Appendix D.) OIG also states that it reached that number by applying a rate of
somewhere between 52.85 percent and 54.21 percent for each case in which reimbursement
was claimed for a child over the age of 19- OIG, however, does not specify what percentage
within the range it used with respect to each case or how it determined such a rate was
applicable. The absence of this information makes it impossible for Pennsylvania to
determine the validity of any of the amounts that GIG determined to be ineligible. Without
such information, Pennsylvania opposes GIG's conclusions regarding the assertedly
improper maintenance costs.
                  AdditionaHy. in determining that Pennsylvania improperly claimed
$1,002.54 0 in federal maintenance costs related to the entire sampling frame of 64 6
children, GIG also states that it used an unidentified "statistical software package"
approved by its own Department. (See Draft Report at Appendix S.) Again, without further
information regarding this statistIcal software or how exactly the statistical analysis was
done, Pennsylvania cannot determine the validity of OIG's analysis and therefore opposes
OIG's findings. ~
               Pennsylvania also cannot find any mathematical or legal basis for OIG's
findings with regard to two specific sample cases. First, for sample number '11, OIG states
that Pennsylvania improperly claimed $10,277 in federal maintenance expenses after the
child turned 19- The invoices submitted with respect to this child. however, total only
$7,07 6 . DIG's calculation of $10;277 in federal maintenance costs related to this child is
therefore plainly wrong.
              Second, for sample number 65, OIG states that Pennsylvania improperly 

claimed $2,578 in federal maintenance costs after the child turned 19. However, the 

invoices submitted after this child turned 19 total $2,997.15- Again. DIG's calculation of 

$2,578 in federal maintenance costs is clearly wrong. 

                  2. 	    OIGJmproperty Recommends the Disallowance of Non ldentifiabl~
                          "Associated Administrative Costs"'
                In its Draft Report, GIG recommends that Pennsylvania refund to the federal
 government $639.363 in "associated administrative costs." (Draft Report at 4-5.) OIG's
 manufacture/calculation of these unidentified "administrative costs" is fundamentally
 unsound and falls woefully short of being an appropriate basis forthe disallowance of
 federal funds.
                  First, DIG's assumption - an assumption critical to its argument - that the
 disallowances of a certain number of maintenance claims incurred by Pennsylvania should

          Pennsylvania also opposes OIG's statistical analysis to the extent it applied a 90 % confidence level
 rather than the standard 95% confidence level.
                                                                                                                          APPENDIXE
                                                                                                                           Page 11 of 13




Stephen Virbltsky, Regional Inspecto r General for Audit SeIVices
July 15. 2009
Page 11


                                                                        adminis trative costs is
necessarily result in a proporti onate decrease in "associa ted"
                                       federally -approve   d adminis   trative  cost claiming
incorrect in light of Pennsylvania's
                                                                             s and allocates
methodology. Like most states, Pennsylvania identifie s, measure
                                                                                  moment time study
adminis trative costs for Title IV-E eligible programs through a random
                                                  activitie s of county   case  workers  through out the
C"RMTS"), which monitors and analyzes the
         nwealth .  Each quarter,  approxim   ately 3.000    "momen   t  in time" requests are
Commo
                                                                            Each recipien t of an RMTS
randoml y sent to county case workers throughout Pennsylvania.
                                                                         at that precise moment and
 request identifie s what type of activity he or she is conduct ing
                                                                        wealth then aggrega tes the
 docume nts the activity on the observation form. The Common
                                                              of time an   average Pennsylvania case
 informat ion from aU forms, calculates the    percenta   ge
                 on  certain activities , and applies  the   applicab le  percentage to each county's
worker  spends
 actual adminis trative cost pool. Pennsylvania has used this adminis
                                                                                tratIve cost da.iming
                                                                        1989.
 methodology, with the knowledge and approval of HHS, since
                                                                                                           claiming 

                 Because Pennsylvania's federally-approved adminis trative cost
                                        riven  (meanin    g  that     its  result    is  depende     nt upon  county 

methodo logy is purely activity-d
                                                                       d  on   a  child-by    -child  basis), it is 

caseworkers' average activitie s rather than calculate
                        that    a disallow  ance   of a  Title   IV-E    placeme       nt  mainten    ance  claim would 

incorrect to   assume
                                                                                                      reductio n - ofTItle 

necessarily result in any Significant reduction- let alone a proportionate
IV-E adminis trative costs for which Pennsylvan ia seeks federal
                                                                                        financial participa tion. 

                                                                                           of a subset of placement 

Indeed, it is entirely possible that even significa nt disallowances
                                                            ble    effect    on    the   overall   adminis trative claims 

maIntenance claims would have little apprecia
            d during  the  same    period.   Thus,   there    is   no   factual     or  legal basis for OIG's
submitte
                                                                                               of certain placement 

unstated (and wholly unsuppo rted) assump tion that disallowances
                                                                                             in addition al 

mainten ance claims, if imposed by ACF, should necessarily result
 disallow ances of adminis trative claims. 

                  In addition . and separately, the formula used by OIG to calculat
                                                                                                           e the alleged 

                                                                            be   refunded      to  the  federal 

 amount of associated adminis trative costs that should
                              .  Accordin  g to  footnote     5   in  the   Draft    Report,    OIG   calculat ed these 

 government is     unsound
 purported adminis trative costs by "dividin g the State agency's
                                                                                         totallV·E claims for 

           trative costs  ($593,23    3.356   (Federal    share))       by  its  total    Title IV·E claims for 

 adminis
                                            (Federal   share))       plus    training     costs ($72,252,983 (federal 

 maintenance costs ($857,954.391
                                                                                               d $1.002.5 40 (Federal 

 share)) [and then applying} the resultan t percentage to the estimate
                            mainten    ance   costs."   (fd.  at    4  n.s)   (emphas       is added).    However, a 

 share) in unallow able
                                                               explaine       d  in  the   footnote   , cannot  be used to 

 state-wide ratio (i.e., 67 counties). such as that
                   e adminis    trative costs   purporte   dly     tied   to  the   mainten     ance claims at issue in 

 fairly determin
                                                                                        claims submitte d with respect
 this phase of the Audit because this phase excludes Title IV-E
                                                                                               counties in the 

 to children in Philadel phia and Allegheny counties, the two largest
                                 counties  with   the largest       populati     on   ofTitie    IV·E eligible children. 

 Commonwealth and the
                                                                         therefore       might   unfairly skew the ratio 

  Includin g these two large counties in the calculat ion
  that is then applied    to the   65 smallerc    ounties.     

                                                                                           APPENDIXE
                                                                                            Page 12 of 13




Stephen Virbitsky, Regional Inspector General for Audit Services
july 15, 200 9
Page 12


               In an earlier phase of the Audit, OIG maintained (without explanation or
support) that its approach to identifying and calculating these "associated administrative
costs" was "reasonable." (See September 20,2007 Fina! Report at 14.) It also noted that
Pennsylvania "did not offer an alternative method of calculating administrative costs on
either a statewide or county-specific basis," Od,) But Pennsylvania is not required to
identify alternative methodologies that OIG could employ to manufacture phantom costs;
rather, because Pennsylvania never claimed the specific costs that OfG recommends be
disallowed, it is OIG that bears the burden of establishing that the manner in which it
identified and calculated these so-called "associated" costs was reasonable and
appropriate. Cf. HHS DAB Appellate Division Practice Manual FAQ, available at
htlp:l!www,hhs.gov/dab/appeHate/manual.html (H[W]hen the disallowance amount
results from extrapolation from a sample measurement, the respondent must detail the
statistical methodology used and be prepared to substantiate the validity of the
methodology upon inqUiry,") Forthe reasons explained above, OIG cannot meet its burden
 in this case.
             Accordingly, DIG's recommendation that Pennsylvania refund $639,363 in 

purported "associated administrative costs" is without legal or factual support and should 

be withdrawn. 


       E.      Pennsylvania ReJects AU Recommendations Of The Draft Report
               Pennsylvania does not concur with any of the recommendations OIG makes in
the Draft Report. Pennsylvania has been untawfully singled out in this Audit of enormous
size and scope - putting more than $1.5 billion under review - based upon the results of a
small and statistically unreliable sample of unique reclassified Claims from more than a
decade ago at the apparent request of ACF regional staff with whom Pennsylvania has had a
long-standing contentious relationship. By acceding to ACF's request, GIG acted outside of
its statutory authority, failed to maintain the independence and objectivity required by the
Inspector General Act, and improperly assumed ACF's own program operating
responsibilities for ensuring states' compliance with all requirements for federal financial
participation under the Social Security Act and implementing regulations. The Audit also
improperly focuses on claims submitted numerous years ago, during a different
administration, and under far different circumstances, rather than on the current status of
 Pennsylvania's child welfare system.

                In addition to the above problems with the Audit as a whole, OIG's findings in
 this phase of the Audit lack an adequate factual or (egal basis. OIG has left critical gaps in
 its explanation of how it determined the amount of unallowable claims based on the result
 of its sample findings. And, OIG's conclusion that Pennsylvania must refund a
 proportionate amount of administrative costs allegedly "associated" with its maintenance
 costs also has no basis.
                                                                                         APPENDIXE 

                                                                                          Page 13 of 13 





Stephen Virbitsky, Regional Inspector General for Audit SelVices
July 15. 200 9
Page 13


               In sum, the Draft Report is rife with errors and wholly unsupportable
conclusions. There is no factual or legal basis for the recommended disaUowances and
there is no reason for Pennsylvania to "work with ACF" on anything that has to do with this
arbitrary and seemingly punitive course of events. The Draft Report should be withdrawn in
its entirety and any and all aspects of this audit should be immediately terminated.

                Thank you for providing Pennsylvania with the opportunity to comment on the
Draft Report.
                                          Very truly yours,



                                          Mark A. Aronchick

MAA/saw
Enclosures

cc: 	    Estelle B. Richman. Secretary of Public Welfare 

         (with enclosures - via electronic mail and first class   mam 

